EXHIBIT A

Trendsettah USA, Inc. v. Swisher International, Inc., 761 Fed.Appx. 714 (2019)
2019-1 Trade Cases P 80,666

761 Fed.Appx. 714
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.
TRENDSETTAH USA, INC. and Trend Settah,
Inc. Plaintiffs-Appellants / Cross-Appellees,
v.
SWISHER INTERNATIONAL, INC.,
Defendant-Appellee / Cross-Appellant.
Nos. 16-56823, 16-56827
|
Argued and Submitted November
16, 2018 Pasadena, California
|
Filed February 08, 2019

if supplier's sole purpose in refusing to deal with seller was
to harm seller;
[4] whether relevant market was national and whether
supplier was liable for national damages were questions
for jury;
[5] whether supplier attempted to monopolize national
market, but was successful in monopolizing only some
regional markets, was question for jury; and
[6] whether restricted market output for cigarillos harmed
competition and entitled seller to damages was question
for jury.

Affirmed in part and reversed in part.

West Headnotes (7)
[1]

Synopsis
Background: Seller of cigarillos brought antitrust action
against its supplier, asserting claims for monopolization
and attempted monopolization under Sherman Act.
Following a jury verdict for seller, the United States
District Court for the Central District of California, James
V. Selna, J., granted supplier’s motion for new trial,
granted supplier judgment as matter of law (JMOL) as
to monopolization claim, and later reconsidered earlier
summary judgment order and granting supplier summary
judgment as to seller’s antitrust claims. Seller appealed.

District court acted within its discretion
in granting post-trial reconsideration of
denial of summary judgment for supplier
of cigarillos in action under Sherman
Act for monopolization and attempted
monopolization brought against it by seller
of cigarillos, in light of Court of Appeals'
decision holding that there was duty not
to refrain from dealing only where sole
conceivable rationale or purpose was to
sacrifice short-term benefits in order to obtain
higher profits in the long run from the
exclusion of competition; Court of Appeals'
decision addressed question of law that
supplier had raised prior to trial regarding
what constituted anticompetitive conduct. 15
U.S.C.A. § 2.

Holdings: The Court of Appeals held that:
[1] district court acted within its discretion in granting
post-trial reconsideration of denial of summary judgment
for supplier;
[2] district court failed to draw all reasonable inferences
in favor of seller on post-trial reconsideration of denial of
summary judgment for supplier;
[3] district court properly instructed jury that it could
find supplier engaged in attempted monopolization only

Federal Civil Procedure
Subsequent proceedings; reconsideration
of denial of motion

Cases that cite this headnote
[2]

Federal Civil Procedure
Subsequent proceedings; reconsideration
of denial of motion
Federal Courts

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Trendsettah USA, Inc. v. Swisher International, Inc., 761 Fed.Appx. 714 (2019)
2019-1 Trade Cases P 80,666

on legitimate business purposes. 15 U.S.C.A.
§ 2.

Reversal or Vacation of Judgment in
General
District court failed to draw all reasonable
inferences in favor of seller of cigarillos,
as non-moving party, on post-trial
reconsideration of denial of summary
judgment for supplier of cigarillos, which
allegedly engaged in monopolization and
attempted monopolization in violation of
Sherman Act by refusing to deal with
seller, and thus post-trial grant of summary
judgment to supplier would be reversed;
district court cited evidence that supplier had
introduced at trial to support its assertion
that it had legitimate business reasons for its
refusal to deal, but in rendering verdict in
favor of seller, jury clearly had rejected this
evidence. 15 U.S.C.A. § 2.

Cases that cite this headnote
[5]

Expert testimony presented question for jury
as to whether relevant market was national
and whether supplier of cigarillos was liable
for national damages, in action by seller of
cigarillos asserting that supplier's refusal to
deal constituted monopolization in violation
of Sherman Act. 15 U.S.C.A. § 2.
Cases that cite this headnote
[6]

Cases that cite this headnote
[3]

Cases that cite this headnote
[4]

Antitrust and Trade Regulation
Instructions
District court properly instructed jury that
it could find supplier of cigarillos engaged
in attempted monopolization under Sherman
Act only if supplier's sole purpose in
refusing to deal with seller of cigarillos
was to harm seller; court instructed jury
that if seller’s conduct harmed supplier's
independent interests and made sense only to
maintain monopoly power, it was not based

Antitrust and Trade Regulation
Questions of law and fact
Whether supplier of cigarillos attempted
to monopolize national market, but was
successful in monopolizing only some
regional markets, was question for jury
in action by seller of cigarillos asserting
that supplier's refusal to deal constituted
attempted monopolization in violation of
Sherman Act. 15 U.S.C.A. § 2.

Federal Courts
Requests and failure to give instructions;
refusal of requested charge
Supplier of cigarillos preserved for harmlesserror review its challenge to district
court's refusal to give proposed jury
instruction in action brought against supplier
by seller of cigarillos, which asserted
claims for monopolization and attempted
monopolization under Sherman Act based
on supplier's refusal to deal, where supplier
objected at trial to district court's refusal to
give jury instruction. 15 U.S.C.A. § 2.

Antitrust and Trade Regulation
Questions of law and fact

Cases that cite this headnote
[7]

Antitrust and Trade Regulation
Questions of law and fact
Evidence that supplier failed to timely deliver
200 cigarillos to seller under private label
agreements created question for jury as to
whether restricted market output for cigarillos
harmed competition and entitled seller to
damages in its action asserting that supplier's
refusal to deal constituted monopolization
and attempted monopolization in violation of
Sherman Act. 15 U.S.C.A. § 2.
Cases that cite this headnote

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Trendsettah USA, Inc. v. Swisher International, Inc., 761 Fed.Appx. 714 (2019)
2019-1 Trade Cases P 80,666

Attorneys and Law Firms
*716 Eric F. Citron, Charles Hardy Davis, Tom
Goldstein, Goldstein & Russell, P.C., Bethesda, MD,
Tom Goldstein, Goldstein & Russell, P.C., Bethesda,
MD, Victor Meng, Mark Poe, Attorney, Randolph Gaw,
Esquire, Attorney, Samuel S. Song, Attorney, Gaw Poe
LLP, San Francisco, CA, for Plaintiffs-Appellants
Theodore J. Boutrous, Jr., Esquire, Attorney, Daniel
Glen Swanson, Attorney, Gibson, Dunn & Crutcher LLP,
Los Angeles, CA, Cynthia Richman, Gibson, Dunn &
Crutcher LLP, Washington, DC, for Defendant-Appellee
Appeal from the United States District Court for the
Central District of California, James V. Selna, District
Judge, Presiding, D.C. No. 8:14-cv-01664-JVS-DFM
Before: FLETCHER and PAEZ, Circuit Judges, and
GLEASON, * District Judge.

MEMORANDUM **
Following a jury verdict for Trendsettah USA, Inc.
and Trend Settah, Inc. (“TSI”) in TSI’s antitrust and
breach of contract case against Swisher International, Inc.
(“Swisher”), the district court granted Swisher’s motion
for a new trial as to TSI’s antitrust claims but not
as to TSI’s contract claims. The district court granted
Swisher judgment as a matter of law (“JMOL”) as to
TSI’s monopolization claim but not as to TSI’s attempted
monopolization claim. Later, following our decision in
Aerotec International, Inc. v. Honeywell International,
Inc., 836 F.3d 1171 (9th Cir. 2016), the district court
reconsidered its earlier summary judgment order, this time
granting Swisher summary judgment as to TSI’s antitrust
claims. 1
[1] 1. We begin our analysis with the district court’s
reconsideration of summary judgment because, were we
to affirm the district court’s post-trial grant of summary
judgment to Swisher, we would not reach many of the
district court’s rulings on the other issues. 2 We review the
district court’s decision to reconsider summary judgment
for abuse of discretion, and we review the district court’s
summary judgment determination de novo. See Smith v.
Clark Cty. Sch. Dist., 727 F.3d 950, 954–55 (9th Cir. 2013).

The district court did not abuse its discretion in
reconsidering summary judgment in light of Aerotec’s
holding that “there is only a duty not to refrain from
dealing where the only conceivable rationale or purpose
is ‘to sacrifice short-term benefits in order to obtain
higher profits in the long run from the exclusion of
competition.’ ” 836 F.3d at 1184 (quoting MetroNet Servs.
Corp. v. Qwest Corp., 383 F.3d 1124, 1132 (9th Cir.
2004) ). Aerotec’s holding addressed a question of law
that Swisher had raised prior to trial regarding what
constitutes anticompetitive conduct. See *717 F.B.T.
Prods., LLC v. Aftermath Records, 621 F.3d 958, 962–
63 (9th Cir. 2010) (holding that a court may reconsider
a question of law that was raised “at some point before
the judge submitted the case to the jury” where argument
does not rest on the sufficiency of the evidence); see also
Williams v. Gaye, 895 F.3d 1106, 1122 (9th Cir. 2018)
(discussing Ortiz v. Jordan, 562 U.S. 180, 131 S.Ct. 884,
178 L.Ed.2d 703 (2011) ).
[2] However, in reconsidering summary judgment, the
district court failed to draw all reasonable inferences in
favor of TSI, the nonmoving party. To the contrary, the
district court cited evidence that Swisher had introduced
at trial to support its assertion that it had legitimate
business reasons for its conduct. But in rendering its
verdict, the jury clearly had rejected this evidence. See
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133,
151, 120 S.Ct. 2097, 147 L.Ed.2d 105 (2000) (“[A]lthough
the court should review the record as a whole, it must
disregard all evidence favorable to the moving party that
the jury is not required to believe.”). Therefore, the district
court’s post-trial grant of summary judgment to Swisher
on the antitrust claims must be reversed.
[3]
[4] 2. We turn then to the jury instruction issue,
which formed the basis of the trial court’s granting of a
new trial on the attempted monopolization claim. Swisher
adequately preserved its objection to the trial court’s
failure to give Swisher’s proposed Jury Instruction 29.
See Hunter v. Cty. of Sacramento, 652 F.3d 1225, 1230–
31 (9th Cir. 2011). Swisher’s “claim of error relating to
the jury instructions, preserved by way of objection at
trial, is subject to harmless-error analysis.” United States
v. DeJarnette, 741 F.3d 971, 983 (9th Cir. 2013). However,
on the merits, we hold that the jury instruction that was
given adequately and accurately instructed the jury on
the applicable law. Although the precise wording of the
proposed instruction was different, the principle in the

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Trendsettah USA, Inc. v. Swisher International, Inc., 761 Fed.Appx. 714 (2019)
2019-1 Trade Cases P 80,666

instruction that was given is the same: in order for Swisher
to have violated the antitrust laws, its only purpose
must have been to harm TSI. 3 Therefore, the district
court erred in granting a new trial as to the attempted
monopolization claim.
[5] 3. We turn next to the district court’s JMOL rulings.
The district court erred in granting JMOL to Swisher
as to TSI’s monopolization claim because the jury could
agree with Swisher’s expert that the relevant market was
national, and agree with TSI’s expert that Swisher was
liable for national damages. See Zhang v. Am. Gem
Seafoods, Inc., 339 F.3d 1020, 1038 (9th Cir. 2003) (“We
must accept any reasonable interpretation of the jury’s
actions, reconciling the jury’s findings ‘by exegesis if
necessary[.]’ ” (quoting Gallick v. Baltimore & Ohio R.R.
Co., 372 U.S. 108, 119, 83 S.Ct. 659, 9 L.Ed.2d 618 (1963)
) ).
[6] The district court did not err in denying Swisher’s
JMOL motion as to attempted monopolization because
“a reasonable jury could find that Swisher attempted
to monopolize a national market, but was successful in
monopolizing only some regional markets.” See Estate of
Diaz v. City of Anaheim, 840 F.3d 592, 604 (9th Cir. 2016)
(“The test is whether ‘the evidence, construed in the light
most favorable to the nonmoving party, permits only one
reasonable conclusion, and that conclusion is contrary to
that of the jury.’ ” (quoting White v. Ford Motor Co., 312
F.3d 998, 1010 (9th Cir. 2002), opinion amended on denial
of reh’g, 335 F.3d 833 (9th Cir. 2003) ) ), cert. denied sub
nom. *718 City of Anaheim, Cal. v. Estate of Diaz, –––
U.S. ––––, 137 S.Ct. 2098, 197 L.Ed.2d 895 (2017).

[7] The district court also properly rejected Swisher’s
assertion in its JMOL motion that TSI had failed to show
antitrust injury. “Swisher failed to rebut” TSI’s evidence
that “Swisher failed to timely deliver approximately 200
million cigarillos under the private label agreements.”
The district court correctly held that “a reasonable jury
could find that the restricted market output for cigarillos
harmed competition.” See Ohio v. Am. Express Co., –––
U.S. ––––, 138 S.Ct. 2274, 2288, 201 L.Ed.2d 678 (2018)
(“[We] ‘will not infer competitive injury from price and
output data absent some evidence that tends to prove that
output was restricted or prices were above a competitive
level.’ ” (emphasis added) (quoting Brooke Group Ltd. v.
Brown & Williamson Tobacco Corp., 509 U.S. 209, 237,
113 S.Ct. 2578, 125 L.Ed.2d 168 (1993) ) ).
We hold as follows: the district court’s decision to
reconsider its summary judgment ruling is AFFIRMED.
The district court’s grant of summary judgment to Swisher
as to its antitrust claims is REVERSED. The district
court’s grant of a new trial to Swisher as to the attempted
monopolization claim is REVERSED. The district court’s
grant of JMOL to Swisher as to the monopolization
claim is REVERSED. The district court’s denial of JMOL
to Swisher as to the attempted monopolization claim is
AFFIRMED. On remand, the district court is directed to
reinstate the jury’s verdict in its entirety. We award costs
to TSI. See Fed. R. App. P. 39(a)(4).
AFFIRMED IN PART, REVERSED IN PART, AND
REMANDED.

All Citations
761 Fed.Appx. 714, 2019-1 Trade Cases P 80,666

Footnotes

*
**
1
2
3

The Honorable Sharon L. Gleason, United States District Judge for the District of Alaska, sitting by designation.
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit Rule 36-3.
Swisher properly cross-appealed as to the district court’s antitrust rulings. See Fed. R. App. P. 28.1(c)(4); Schwartzmiller
v. Gardner, 752 F.2d 1341, 1345 (9th Cir. 1984).
We need not decide whether the district court erred in denying Swisher a new trial as to the breach of contract claims
due to our disposition of other issues as set forth in this memorandum.
Jury Instruction 29, which was given, states in relevant part: “Thus, if Swisher’s conduct harmed TSI’s independent
interests and made sense only to maintain monopoly power, it was not based on legitimate business purposes.” Cf.
Aerotec, 836 F.3d at 1184.

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

EXHIBIT B

Case: 16-56823, 04/18/2019, ID: 11268227, DktEntry: 86, Page 1 of 2

FILED
UNITED STATES COURT OF APPEALS

APR 18 2019

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK

TRENDSETTAH USA, INC.;
TRENDSETTAH, INC.,
Plaintiffs-Appellants,
v.
SWISHER INTERNATIONAL, INC.,

U.S. COURT OF APPEALS

No. 16-56823
D.C. No. 8:14-cv-01664-JVS-DFM
Central District of California,
Santa Ana

ORDER

Defendant-Appellee.

TRENDSETTAH USA, INC.;
TRENDSETTAH, INC.,
Plaintiffs-Appellees,
v.

No. 16-56827
D.C. No. 8:14-cv-01664-JVS-DFM
Central District of California,
Santa Ana

SWISHER INTERNATIONAL, INC.,
Defendant-Appellant.
Before: W. FLETCHER and PAEZ, Circuit Judges, and GLEASON, District
Judge.
Defendant-Appellee filed a petition for rehearing or rehearing en banc on
March 22, 2019 (Dkt. No. 83). The panel has voted to deny the petition for
The Honorable Sharon L. Gleason, United States District Judge for
the District of Alaska, sitting by designation.
*

Case: 16-56823, 04/18/2019, ID: 11268227, DktEntry: 86, Page 2 of 2

rehearing. Judges W. Fletcher and Paez have voted to deny the petition for
rehearing en banc, and Judge Gleason so recommends. The full court has been
advised of the petition for rehearing en banc and no judge of the court has
requested a vote on whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for rehearing or rehearing en banc is DENIED.

2

EXHIBIT C

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 1 of 19 Page ID #:8883

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Present: The
Honorable

Date

August 17, 2016

James V. Selna
Karla J. Tunis

Not Present

Deputy Clerk

Court Reporter

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants

Not Present

Not Present

Proceedings:

(IN CHAMBERS)
Order GRANTING IN PART and DENYING IN PART Defendant’s
Motion for Judgment as a Matter of Law and Motion for New Trial
Order Setting Scheduling Conference

Defendant Swisher International, Inc. (“Swisher”) has moved for judgment as a
matter of law under Federal Rule of Civil Procedure 50(b). Docket No. 233. Swisher also
seeks a new trial under Rule 59(a). Id. Plaintiffs Trendsettah USA, Inc. and Trend Settah,
Inc. (together, “Trendsettah”) filed an opposition. Docket No. 242. Swisher filed a reply.
Docket No. 250.
For the reasons stated below, the Court grants in part and denies in part
Swisher’s renewed motion for judgment as a matter of law and grants in part and denies
in part Swisher’s motion for a new trial.
1.

Background

Swisher is a cigar manufacturer with its principal place of business in Florida. In
January 2011, Swisher entered into a supply agreement with Trendsettah, another cigar
manufacturer, to manufacture cigarillos for Trendsettah under the “Splitarillos” brand
name. In early December 2011, Swisher notified Trendsettah that it was terminating the
supply agreement because Trendsettah failed to meet certain minimum order
requirements as specified in the agreement. After discussions between the parties, the
parties amended the supply agreement to terminate in October 2012. In February 2013,
after the supply agreement expired, Swisher and Trendsettah entered into another supply
agreement, this time scheduled to terminate in February 2014. The parties did not renew
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 2 of 19 Page ID #:8884

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

the second supply agreement when it ultimately expired in February 2014.
In October 2014, Trendsettah sued Swisher for various misconduct arising out of
Swisher’s alleged breach of the supply agreements. The complaint alleged nine causes of
action: (1) monopolization and attempted monopolization in violation of the Sherman
Act, 15 U.S.C. § 2; (2) monopolization and attempted monopolization in violation of
Florida Antitrust Law, Fl. Stat. § 542.19; (3) breach of contract; (4) breach of the implied
covenant of good faith and fair dealing; (5) trade libel; (6) tortious interference with
contract; (7) intentional interference with prospective business relationships; (8)
negligent interference with prospective business relationships; and (9) unfair competition
in violation of the California Unfair Competition Law, Cal. Bus. & Prof. Code § 17200 et
seq. Docket No. 1.
In May 2015, the Court dismissed the state law claims for negligent interference
and unfair competition for failure to state a claim. Docket No. 40. Several months later, in
January 2016, the Court dismissed the state law claims for trade libel, tortious
interference with contract, and intentional interference with prospective business
relationships on summary judgment. Docket No. 99. Trial on the remaining antitrust and
contract claims was then scheduled for March 2016.
At trial, a jury found Swisher liable on the antitrust and contract claims. Docket
No. 207 at 2-3.1 Swisher now moves for judgment as a matter of law on the antitrust
claims or, in the alternative, for a new trial on both the antitrust and contract claims.
Docket No. 233.
2.

Renewed Motion for Judgment as a Matter of Law

Swisher argues that it is entitled to judgment as a matter of law on Trendsettah’s
monopolization and attempted monopolization claims for four reasons: (1) Swisher had
no antitrust duty to deal with Trendsettah; (2) Trendsettah failed to prove antitrust injury;
(3) Trendsettah failed to prove actual or threatened monopoly power; and (4) Trendsettah
failed to prove causal antitrust injury. Docket No. 233 at 11-35. As explained below, the
Court grants Swisher’s motion for judgment as a matter of law on the monopolization
claim for failure to prove causal antitrust injury. The Court denies the motion in all other
1

All citations are made to the CM/ECF pagination.

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 2 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 3 of 19 Page ID #:8885

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

respects.
2.1.

Legal Standard

Rule 50 authorizes the defendant to move for judgment as a matter of law anytime
after the plaintiff’s case-in-chief. Fed. R. Civ. P. 50(a). In determining whether to grant
judgment as a matter of law, the court must determine whether the jury has a “legally
sufficient evidentiary basis” to find for the plaintiff. Id. If the judge denies the motion,
and the jury later returns a verdict against the defendant, the defendant may renew its
motion for judgment as a matter of law after trial. Fed. R. Civ. P. 50(b); EEOC v. Go
Daddy Software, Inc., 581 F.3d 951, 961 (9th Cir. 2009). Like the preverdict motion, the
postverdict motion also challenges the sufficiency of the plaintiff’s evidence. Hagen v.
City of Eugene, 736 F.3d 1251, 1256 (9th Cir. 2013). If the jury verdict is “supported by
substantial evidence,” the court must uphold the jury verdict. Pavao v. Pagay, 307 F.3d
915, 918 (9th Cir. 2002). However, if the evidence “permits only one reasonable
conclusion, and that conclusion is contrary to the jury,” the court may grant judgment as
a matter of law to the defendant. White v. Ford Motor Co., 312 F.3d 998, 1010 (9th Cir.
2002) (internal quotation marks omitted). When reviewing the evidence, the court must
view the evidence “‘in the light most favorable to the nonmoving party” and draw “all
reasonable inferences” in favor of the nonmoving party. Torres v. City of Los Angeles,
548 F.3d 1197, 1205-06 (9th Cir. 2008).
2.2.

The Court grants Swisher judgment as a matter of law on the monopolization
claim for failure to prove causal antitrust injury.

Section 2 of the Sherman Act prohibits businesses from monopolizing or
attempting to monopolize interstate trade or commerce. 15 U.S.C. § 2. To show
monopolization in violation of the Sherman Act, the plaintiff must show that (1) the
defendant possessed monopoly power in a relevant market; (2) the defendant willfully
acquired or maintained that power; and (3) the plaintiff suffered causal antitrust injury.
SmileCare Dental Grp. v. Delta Dental Plan of Cal., Inc., 88 F.3d 780, 783 (9th Cir.
1996). By contrast, to show attempted monopolization, the plaintiff must show that (1)
the defendant engaged in predatory or anticompetitive conduct; (2) the defendant had a
specific intent to monopolize; (3) the defendant had a dangerous probability of achieving
monopoly power; and (4) the plaintiff suffered causal antitrust injury. Rebel Oil Co. v.
Atlantic Richfield Co., 51 F.3d 1421, 1432-33 (9th Cir. 1995) (citing McGlinchy v. Shell
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 3 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 4 of 19 Page ID #:8886

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

Chem. Co., 845 F.2d 802, 811 (9th Cir. 1988)).
Swisher argues that Trendsettah failed to prove causal antitrust injury on both its
monopolization and attempted monopolization claims. Docket No. 233 at 32-35. To show
causal antitrust injury, the plaintiff must show that the defendant’s anticompetitive
conduct caused the plaintiff to suffer damages. Glen Holly Entm’t, Inc. v. Tektronix Inc.,
343 F.3d 1000, 1007-08 (9th Cir. 2003); Rebel Oil, 51 F.3d at 1433 (“To show antitrust
injury, a plaintiff must prove that his loss flows from an anticompetitive aspect or effect
of the defendant’s behavior.”). In complex antitrust cases like this one, this requires the
plaintiff to provide an antitrust damages model that establishes how the defendant’s
alleged anticompetitive conduct injured the plaintiff. See Comcast Corp. v. Behrend, --U.S. ---, 133 S. Ct. 1426, 1433 (2013) (“If respondents prevail on their claims, they
would be entitled only to damages resulting from reduced . . . competition, since that is
the only theory of antitrust impact accepted for class-action treatment by the District
Court.”); Image Tech. Servs., Inc. v. Eastman Kodak Co., 125 F.3d 1195, 1224 (9th Cir.
1997) (“The ISOs must segregate damages attributable to lawful competition from
damages attributable to Kodak’s monopolizing conduct.”). Further, the model must be
“‘consistent with [the plaintiff’s] liability case, particularly with respect to the alleged
anticompetitive effect of the violation.’” Comcast, 133 S. Ct. at 1433 (quoting ABA
Section of Antitrust Law, Proving Antitrust Damages: Legal and Economic Issues 57, 62
(2d ed. 2010)). Otherwise, the model may impermissibly allow recovery for damages that
are unrelated to the defendant’s anticompetitive conduct. If the model fails to “measure
only those damages attributable to [the plaintiff’s liability] theory,” the model will not
survive scrutiny. Id.
2.2.1.

Monopolization

Trendsettah failed to provide sufficient evidence of causal antitrust injury on its
monopolization claim because its national damages models were inconsistent with its
regional theory of antitrust liability. At trial, Trendsettah presented a regional theory of
antitrust liability on its monopolization claim. The regional theory proposed that the
relevant markets for Trendsettah’s monopolization claims were twelve regional markets,
and that Swisher had actual or threatened monopoly power in seven of the twelve regions.
See, e.g., Docket No. 233-9 at 94 (“The other issue about relevant market is the relevant
geographic market . . . . We pointed to evidence that these are regional markets based on
the MSA regions or even state markets . . . .”). To establish causal antitrust injury in these
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 4 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 5 of 19 Page ID #:8887

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

regional markets, Trendsettah then presented two alternative damages models: the logistic
model and the Good Times model. However, both models relied only on national data,
not regional data. For example, the Good Times Model calculated damages using
comparative national sales data from Trendsettah’s competitor, Good Times USA.
Docket No. 243-4 at 44-45 (testimony from Dr. DeForest McDuff (“McDuff”),
Trendsettah’s economic expert, describing Good Times and logistic damages models);
Docket No. 233-9 at 82 (“The numbers that [McDuff] was presenting yesterday or two
days ago, starting at 30 million and then some various iterations, those are national . . . .
They’re not tied to geography. That is the sum of the cause that [Trendsettah] suffered.”).
And because both models relied only on national data, neither model was consistent with
Trendsettah’s regional theory of monopolization. Moreover, Trendsettah has failed to
explain how the jury could otherwise determine causal antitrust injury in the regional
markets based when relying only on evidence regarding national antitrust injury. Indeed,
McDuff’s trial testimony made clear that monopoly power (or the dangerous probability
thereof) did not exist in all Trendsettah regions and, in some cases, even in all states in a
given region. The jury therefore lacked “sufficient evidentiary basis” to find causal
antitrust injury on the monopolization claim. Fed. R. Civ. P. 50(a)(1). Accordingly, the
Court grants Swisher judgment as a matter of law on the monopolization claim.2
Trendsettah’s opposition argues that this argument is barred by the doctrine of
judicial estoppel because Swisher has previously argued that the jury’s damages award
does not necessarily track expert testimony. Docket No. 242 at 26. This argument
misunderstands the issue. The issue is not whether the antitrust verdict was consistent
with McDuff’s expert testimony regarding Trendsettah’s causal antitrust injury. Rather,
the issue is whether the jury had “sufficient evidentiary basis” to find causal antitrust
injury. Docket No. 233-9 at 80 (“Said another way, I don’t know how the jury could take
the present evidence and award damages for the territories in which [McDuff] found
either monopolization or attempted monopolization.”).
2.2.2.

Attempted monopolization

Trendsettah has produced sufficient evidence of causal antitrust injury on its
attempted monopolization claim. Unlike with the monopolization claim, Trendsettah
If the Court is mistaken in granting judgment as a matter of law on this basis, the Court would
nevertheless grant a new trial for the reasons stated infra.
2

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 5 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 6 of 19 Page ID #:8888

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

presented two alternative theories of attempted monopolization at trial: one based on
regional markets, and another based on a national market. See, e.g., Docket No. 233-9 at
98 (“If you agree with Swisher that it’s a national market, then they do have a significant
market share to get dangerous probability. They can be liable for attempted monopoly. I
submit to you that this is kind of the simplest and the straightforward measures of
antitrust damages because it counts all sales around the country.”). Viewing the evidence
regarding national antitrust injury in the light most favorable to Trendsettah, and drawing
all reasonable inferences in favor of Trendsettah, a reasonable jury could find causal
antitrust injury resulting from Swisher’s attempt to monopolize a national market.
Swisher does not directly dispute this. Swisher instead argues that the entire
antitrust verdict must be rejected because it was inconsistent with the antitrust damages
award. Specifically, Swisher argues that, because the damages award was based on
Trendsettah’s national antitrust injury, the jury could not consistently find both attempted
monopolization in the national market but actual monopolization in the regional markets.
Docket No. 250 at 25-26 (arguing that the Court may reject the jury verdict “given that
the jury found Swisher liable for actual monopolization and there was never a claim that
Swisher monopolized a national market”); Tr. Mot. JMOL Hr’g (June 27, 2016) at 35:2447:10 (“So if the jury is checking the box on monopolization and checking the box on
attempt, the only way to reconcile those two together is on the basis that the jury went
with Dr. McDuff's regional markets. That brings us back to the mismatch between
liability theory and the supposed proof of injury and damages.”). The Court rejects this
argument. Given the evidence presented at trial, a reasonable jury could find that Swisher
attempted to monopolize a national market, but was successful in monopolizing only
some regional markets. In that case, the antitrust damages award was consistent with the
attempted monopolization verdict, even if inconsistent with the actual monopolization
verdict. The jury therefore would have sufficient evidence of attempted monopolization,
notwithstanding Trendsettah’s failed monopolization claim. Accordingly, the Court
denies Swisher judgment as a matter of law on the attempted monopolization claim.
2.3.

The Court rejects Swisher’s remaining three arguments for judgment as a
matter of law.

Swisher raises three additional arguments for judgment as a matter of law: (1)
Swisher had no antitrust duty to deal with Trendsettah; (2) Trendsettah failed to show
antitrust injury; and (3) Trendsettah failed to show actual or threatened monopoly power.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 6 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 7 of 19 Page ID #:8889

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

Docket No. 233 at 11-32. The Court rejects all three arguments.
2.3.1.

Swisher waived its arguments regarding antitrust duty to deal
and failure to establish actual or threatened monopoly power.

“A Rule 50(b) motion for judgment as a matter of law is not a freestanding motion.
Rather, it is a renewed Rule 50(a) motion.” Go Daddy, 581 F.3d at 961. “Because it is a
renewed motion, a proper post-verdict Rule 50(b) motion is limited to the grounds
asserted in the pre-deliberation Rule 50(a) motion.” Id. This requirement is strict: if the
defendant fails to move for judgment on an issue in its preverdict motion, the defendant
cannot move for judgment on that same issue in its postverdict motion. Id.; Freund v.
Amersham, 347 F.3d 752, 761 (9th Cir. 2003) (“A party cannot raise arguments in its
post-trial motion for judgment as a matter of law under Rule 50(b) that it did not raise in
its pre-verdict Rule 50(a) motion.”). Nevertheless, courts must liberally interpret the
defendant’s preverdict motion when determining whether there is waiver. See Go Daddy,
581 F.3d at 961 (“Absent such a liberal interpretation, the rule is a harsh one.” (internal
quotation marks omitted)). Under the Ninth Circuit’s “liberal” standard for determining
waiver, id., “an inartfully made or ambiguously stated motion for a directed verdict . . .
may constitute a sufficient approximation of a motion for a directed verdict to satisfy the
requirements of Rule 50(b),” Farley Transp. Co. v. Santa Fe Trail Transp. Co., 786 F.2d
1342, 1347 (9th Cir. 1985) (internal citations and quotation marks omitted)).
At trial, Swisher waived its arguments regarding antitrust duty to deal and failure
to establish actual or threatened monopoly power because Swisher’s initial motion for
judgment as a matter of law argued only that Trendsettah failed to show antitrust injury
or causal antitrust injury. The trial transcript for Swisher’s preverdict motion shows the
following:
!

Swisher begins its preverdict motion by stating: “The basis of Swisher’s
motion is that plaintiffs have not introduced evidence to prove every element
of their antitrust claim . . . . Throughout the presentation, Your Honor,
plaintiffs’ case-in-chief has been based on really a breach of contract case
and nothing more.”

!

After discussing potential double recovery on the antitrust and contract
damages, Swisher continues: “Let me move into the specific elements of the

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 7 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 8 of 19 Page ID #:8890

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

antitrust claim as well.”
!

Swisher first argues that Trendsettah has failed to show bare antitrust injury:
“With respect to competition, Your Honor, the uncontroverted testimony
from [Trendsettah’s] own witnesses is that competition has increased, not
decreased.”

!

Swisher next argues that Trendsettah has failed to show anticompetitive
conduct: “Moreover, there has been no evidence presented of tortious
interference in this case.”

!

After arguing that Trendsettah has failed to show antitrust injury or
anticompetitive conduct, Swisher tries to end its preverdict motion: “Based
on all of those lacking elements, . . . Swisher seeks a directed verdict on
count one, the antitrust claim.”

!

The Court interjects, challenging Swisher’s assertion that Trendsettah has
failed to show anticompetitive conduct: “Well, can’t the antitrust claim, both
monopolization and attempt, be made without demonstrating
disparagement?”

!

After answering the Court, Swisher again tries to end its preverdict motion:
“Based on that argument, Your Honor, Swisher moves for a directed verdict
on the antitrust claim.”

!

On the Court’s invitation, Swisher declines to raise any additional
arguments: “Do you want to address any of the other claims?” “No, Your
Honor.”

!

After Trendsettah presents its opposition, Swisher withdraws its argument
regarding anticompetitive conduct and reasserts its initial argument
regarding antitrust injury: “Your Honor, I’m just going to rely on the
arguments I made with respect to competition. I think that the testimony was
clear that competition increased, not just competitors. I think that is a
fundamental element of the claim, and it was not established.”

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 8 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 9 of 19 Page ID #:8891

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.
!

Date

August 17, 2016

After Swisher ends its preverdict motion, the Court sua sponte states that
Trendsettah may have insufficient evidence of causal antitrust injury:
namely, antitrust damages resulting from anticompetitive conduct in regional
markets.

Docket No. 243-1 at 2-9 (emphases added). During this exchange, Swisher
nowhere mentioned either an antitrust duty to deal or actual or threatened monopoly
power when presenting its initial motion for judgment as a matter of law. Instead,
Swisher specifically argued only that Trendsettah has failed to show antitrust injury or
causal antitrust injury. See, e.g., id. at 2 (“Your Honor, I’m just going to rely on the
arguments I made with respect to competition. I think that the testimony was clear that
competition increased, not just competitors.” (emphasis added)). Swisher has therefore
waived its arguments regarding an antitrust duty to deal or actual or threatened monopoly
power for purposes of the present motion.
Swisher’s reply argues that it preserved the argument regarding an antitrust duty to
deal because Swisher’s initial motion for judgment as a matter of law argued that
“plaintiffs’ case-in-chief has been based on a really a breach of contract case and nothing
more.” Docket No. 250 at 16 (quoting Docket No. 233-9 at 70-71). The Court rejects this
argument. Under the Ninth Circuit’s “liberal” standards for waiver, the plaintiff may
preserve an argument for a renewed motion for judgment as a matter of law even when
the argument is “inartfully made or ambiguously stated.” Farley Transp., 786 F.2d at
1347. However, Swisher’s motion was neither “inartful[]” nor “ambiguous[].” Id. As the
excerpts from the trial transcript make clear, Swisher specifically argued only that
Trendsettah has failed to show antitrust injury or causal antitrust injury, and not that
Swisher had no antitrust to deal or that its showing of monopoly power failed.
2.3.2.

Trendsettah provided sufficient evidence of antitrust injury.

To show monopolization or attempted monopolization in violation of the Sherman
Act, the plaintiff must show, among other things, “antitrust injury.” SmileCare, 88 F.3d at
783. To show antitrust injury, the plaintiff must show that defendant’s anticompetitive
conduct harmed competition. Glen Holly, 343 F.3d at 1007-08 (“[I]t is inimical to the
antitrust laws to award damages for losses stemming from acts that do not hurt
competition.” (citing Atlantic Richfield Co. v. USA Petroleum, Inc., 495 U.S. 328, 334
(1990)). Harm to competition can include restricted market output, supracompetitive
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 9 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 10 of 19 Page ID
#:8892

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

pricing, and poor product quality. See Rheumatology Diagnostics Lab., Inc. v. Aetna,
Inc., 2013 WL 5694452, at *15 (N.D. Cal. Oct. 18, 2013) (“Market power can be shown
by actual harm to competition inflicted by the defendant, such as restricted output or
supra-competitive prices, or by the defendant’s dominant market share and barriers to
entry in the relevant market.”) (emphasis added); Stearns v. Select Comfort Retail Corp.,
2009 WL 1635931, at *13 (N.D. Cal. June 5, 2009) (“The antitrust laws are intended to
prevent harm to competition manifested as higher prices, lower output, or decreased
quality in the products within a defined market.”).
Trendsettah provided sufficient evidence of antitrust injury here. At trial,
Trendsettah established that Swisher failed to timely deliver approximately 200 million
cigarillos under the private label agreements. Docket No. 243-4 at 24 (“And there’s a
figure corresponding to that that says 202,309,970. Do you have an understanding as to
what that number refers to?” “That is the total deficit over time as calculated by
[Swisher’s economic expert.]”). As the Court explained on summary judgment, this
evidence is sufficient to establish harm to competition based on restricted market output.
Docket No. 99 at 14-15. At trial, Swisher failed to rebut the evidence of restricted market
output, for example, by showing that total market output for cigarillos would have
remained the same even if Swisher had timely delivered cigarillos to Trendsettah. Indeed,
that some firms may have entered and that overall market volume may have increased do
not negate harm to competition, particularly when viewed from the perspective of still
higher market volumes had Swisher performed. See id. Without such rebuttal evidence, a
reasonable jury could find that the restricted market output for cigarillos harmed
competition. White, 312 F.3d at 1010 (holding that judgment as a matter of law is
permissible only when evidence “permits only one reasonable conclusion, and that
conclusion is contrary to the jury”). The Court therefore denies judgment as a matter of
law on this ground.
3.

Motion for New Trial

Swisher also seeks a new trial on both the antitrust and contract claims. Swisher
raises four arguments for retrial: (1) the Court erroneously failed to instruct the jury on
Swisher’s antitrust duty to deal; (2) the Court erroneously instructed the jury on indirect
proof of monopoly power; (3) the contract verdict is contrary to the evidence regarding
Trendsettah’s contract damages; and (4) retrial on the antitrust claims requires retrial on
the contract claims. Docket No. 233 at 35-39. As explained below, the Court grants a new
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 10 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 11 of 19 Page ID
#:8893

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

trial on the antitrust claims for failure to instruct the jury on Swisher’s antitrust duty to
deal. The Court denies the motion in all other respects.
3.1.

Legal Standard

Rule 59(a) authorizes courts to grant a new trial in three circumstances: (1) when
the verdict is contrary to the clear weight of the evidence; (2) when the verdict is based
on false or perjurious evidence; and (3) when necessary to prevent a miscarriage of
justice. Molski v. M.J. Cable, Inc., 481 F.3d 724, 729 (9th Cir. 2007) (quoting Passantino
v. Johnson & Johnson Consumer Prods., 212 F.3d 493, 510 n.15 (9th Cir. 2000)). Unlike
with a motion for judgment as a matter of law, when determining whether the verdict is
contrary to the clear weight of the evidence, the court is not required to view the evidence
in the light most favorable to the nonmoving party. Experience Hendrix LLC v.
Hendrixlicensing.com Ltd., 762 F.3d 829, 842 (9th Cir. 2014). The court must instead
independently weigh the evidence and assess the credibility of the witnesses. Id.
3.2.

The Court grants a new trial on the antitrust claims.

Swisher seeks a new trial on the antitrust claims based on two errors in the jury
instructions: (1) the Court erroneously failed to instruct the jury on Swisher’s antitrust
duty to deal, and (2) the Court erroneously instructed the jury on indirect proof of
monopoly power. Docket No. 233 at 35-36. As explained below, the Court grants retrial
on the antitrust claims for failure to instruct the jury on Swisher’s antitrust duty to deal.
However, the Court denies retrial for the incorrect jury instructions regarding indirect
proof of monopoly power because Swisher waived this argument under the invited error
doctrine.
3.2.1.

The Court’s failure to instruct the jury on Swisher’s antitrust
duty to deal was harmful error.

Swisher first challenges the Court’s failure to instruct the jury regarding Swisher’s
antitrust duty to deal. Docket No. 233 at 35-36. “Harmless error applies to jury
instructions in civil cases.” Kennedy v. So. Cal. Edison Co., 268 F.3d 763, 770 (9th Cir.
2001). Under the harmless error standard, “[a]n error in instructing the jury in a civil case
requires reversal unless the error is more probably than not harmless.” Caballero v. City
of Concord, 956 F.2d 204, 206 (9th Cir. 1992). In the Ninth Circuit, courts “presume
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 11 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 12 of 19 Page ID
#:8894

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

prejudice where civil trial error is concerned.” Galdamez v. Potter, 415 F.3d 1015, 1025
(9th Cir. 2005). Accordingly, the Ninth Circuit uses a two-step burden-shifting analysis
on harmless error review. First, the moving party must show that the jury instruction was
incorrect. Id. Second, if the moving party sustains its initial burden, “the burden shifts to
the [non-moving party] to demonstrate ‘that it is more probable than not that the jury
would have reached the same verdict’ had it been properly instructed.’” Id. (quoting
Obrey v. Johnson, 400 F.3d 691, 701 (9th Cir. 2005)). Here, the Court’s failure to instruct
the jury regarding Swisher’s antitrust duty to deal was not harmless error.
First, Swisher has sustained its initial burden to show that the Court erred by
failing to instruct the jury regarding Swisher’s antitrust duty to deal. To see why, the
Court must first review antitrust law regarding a business’s duty to deal with competitors.
Under antitrust law, businesses generally have no duty to deal with competitors. High
Tech. Careers v. San Jose News, 996 F.2d 987, 990 (9th Cir. 1993) (citing Eastman
Kodak Co. v. Image Technical Services, Inc., 504 U.S. 451, 483 n.32 (1992)). Businesses
therefore are “free to choose the parties with whom they will deal, as well as the prices,
terms, and conditions of that dealing.” Pac. Bell Tel. Co. v. Linkline Commc’ns, Inc., 555
U.S. 438, 448 (2009) (citing United States v. Colgate & Co., 250 U.S. 300, 307 (1919)).
As a result, businesses typically do not face antitrust liability for their unilateral refusal to
deal with their competitors. See In re Adderall XR Antitrust Litig., 754 F.3d 128, 135 (2d
Cir. 2014), as corrected (June 19, 2014) (“Nor do business disputes implicate the antitrust
laws simply because they involve competitors.”). This right is not absolute, however.
Aspen Skiing v. Aspen Highlands Skiing Corp., 472 U.S. 585, 601 (1985) (“[T]he high
value that we have placed on the right to refuse to deal with other firms does not mean
that the right is unqualified.”). “Under certain circumstances, a refusal to cooperate with
rivals can constitute anticompetitive conduct and violate § 2.” Verizon Commc’ns Inc. v.
Law Offices of Curtis V. Trinko, LLP, 540 U.S. 398, 408 (2004). For example,
businesses may be liable for antitrust violations when there are no legitimate business
reasons for their refusal to deal. See Eastman Kodak, 504 U.S. at 483 n.32 (“But such a
right is not absolute; it exists only if there are legitimate competitive reasons for the
refusal.” (citing Aspen Skiing, 472 U.S. at 602-605)). In these cases, federal courts will
find that businesses have a duty to deal with competitors when (1) the business
unilaterally terminates a voluntary course of dealing spanning several years, sacrificing
short-term profits or (2) the business refuses to provide competitors with products that are
already sold in a retail market to other customers. Trinko, 540 U.S. at 409-10; see also
MetroNet Servs. Corp. v. Qwest Corp., 383 F.3d 1124, 1132-33 (9th Cir. 2004)
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 12 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 13 of 19 Page ID
#:8895

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

(analyzing the scope of the antitrust duty to deal under Aspen Skiing and Trinko);
Safeway Inc. v. Abbott Labs., 761 F. Supp. 2d 874, 893-94 (N.D. Cal. 2011) (same).
Even with these exceptions, however, courts have been “very cautious” in imposing
antitrust liability for purely unilateral conduct. Trinko, 540 U.S. at 408. Antitrust liability
for purely unilateral conduct therefore remains “rare.” Linkline, 555 U.S. at 448.
At trial, Trendsettah’s claims for monopolization and attempted monopolization
were based solely on Swisher’s breach of the private label agreements. Trendsettah’s
antitrust claims thus do not trigger antitrust liability on their face. Adderall, 754 F.3d at
135 (“The mere existence of a contractual duty to supply goods does not by itself give
rise to an antitrust ‘duty to deal.’”). Accordingly, to impose antitrust liability on Swisher,
the jury was required to first determine whether, as a threshold issue, Swisher properly
refused to deal with Trendsettah regarding the private label agreements. Trinko, 540 U.S.
at 408. The Court’s failure to instruct the jury regarding Swisher’s duty to deal was
therefore error.
Second, Trendsettah has not met its burden to show that the Court’s failure to give
the refusal-to-deal instruction was harmless. In its opposition, at the hearing, and in
supplemental briefing,3 Trendsettah raised numerous arguments that, even if the refusalto-deal instruction was given, the jury still would have found for Trendsettah. These
arguments are principally based on three events from trial: (1) the jury found that Swisher
had no legitimate business reason for its alleged anticompetitive conduct and acted with
the specific intent to create a monopoly;4 (2) Swisher’s trial counsel expressly eschewed
After the hearing, the Court ordered supplemental briefing to determine whether the jury’s
finding of specific intent on Trendsettah’s attempted monopolization claim rendered harmless the
Court’s failure to give the refusal-to-deal instruction on the attempted monopolization claim. Docket
No. 253. As Swisher correctly noted in supplemental briefing, anticompetitive conduct cannot be
inferred from evidence of anticompetitive intent alone. See William Inglis & Sons Baking Co. v. ITT
Cont’l Baking Co., 668 F.2d 1014, 1028 (9th Cir. 1981) (“[D]irect evidence of intent alone, without
corroborating evidence of conduct, cannot sustain a claim of attempted monopolization.”) (collecting
cases).
3

Ostensibly, the jury’s findings were based on evidence presented at trial that (1) Swisher’s
anticompetitive conduct began in the fourth quarter of 2012, twenty months into the parties’ course of
dealing; (2) Swisher entered into the private label agreements only after senior management learned that
Trendsettah had approached its competitors with the same manufacturing proposal; and (3) Swisher
sacrificed short-term profits by refusing to both fill more profitable orders for unflavored cigarillos and
4

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 13 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 14 of 19 Page ID
#:8896

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

arguing jury instructions at closing argument; and (3) the jury deliberated for less than
three hours before reaching a verdict for Trendsettah on all claims. Mot. JMOL Hr’g Tr.
(June 27, 2016) at 63-65, 68-69; see also Docket No. 258 at 8.
However, none of these arguments addresses the fundamental issue of prejudice
here: the Court’s failure to provide the refusal-to-deal instruction prejudiced Swisher
because, without the instruction, the jury had no basis to determine whether Swisher’s
ordinary contract breach also constituted anticompetitive conduct under the antitrust
law’s special rules governing breach of contract claims between competitors. See
generally Aspen Skiing, 472 U.S. at 600-05. As discussed supra, under these special
rules, businesses generally have no duty to deal with their competitors, and thus typically
face no antitrust liability for their breach of contract. Id. That the jury may have found
specific intent under the Court’s instructions, see Docket No. 208 at 49-50, 54-55, is no
assurance that it would done so had it considered the special rules governing a
monopolist’s refusal to deal, and indeed the Court is skeptical that it would have done so.
The Court’s failure to instruct the jury on this unique aspect of antitrust law therefore
prejudiced Swisher. Moreover, the Court’s failure to provide the refusal to deal
instruction effectively prohibited Swisher from arguing its refusal-to-deal defense at
closing argument, thus doubly prejudicing Swisher’s defense. Given this prejudice to
Swisher, the Court cannot say that its failure to provide the refusal-to-deal instruction was
harmless error. The Court therefore grants a new trial on the attempted monopolization
claim and a conditional new trial on the monopolization claim.
3.2.2.

Swisher waived its argument regarding the Court’s instructions
on indirect proof of monopoly power.

Swisher next argues that the Court incorrectly instructed the jury on indirect proof
of monopoly power: specifically, that the Court incorrectly instructed the jury regarding
barriers to entry and the entry and exist of competitors in the relevant market. Docket No.
233 at 36. Swisher waived this argument under the invited error doctrine.
Under the invited error doctrine, courts will not review challenges to jury
instructions when the moving party itself proposed the challenged jury instructions.
United States v. Hui Hsiung, 778 F.3d 738, 747-48 (9th Cir. 2015) (“Because the
transfer production of cigarillos to their Dominican Republic facilities. Docket No. 242 at 14-16, 28.
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 14 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 15 of 19 Page ID
#:8897

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

defendants were the ones who proposed the instruction in the first place, they cannot now
claim that giving the instruction was error.”); United States v. Baldwin, 987 F.2d 1432,
1437 (9th Cir. 1993) (“Where the defendant himself proposes the jury instruction he later
challenges on appeal, we deny review under the invited error doctrine.”); see also United
States v. Lemusu, 135 F. App’x 52, 53 (9th Cir. 2005) (unpublished) (“As Herman jointly
proposed the relevant jury instructions, his argument is also barred by the invited error
doctrine.” (citing Baldwin, 987 F.2d at 1437)); Yates v. GunnAllen Fin., 2006 WL
1821194, at *1 (N.D. Cal. June 30, 2006) (“Defendants cannot now claim that the jury
was inadequately instructed on certain punitive damage issues because the instructions
given by the court were either instructions submitted by defendants or joint instructions
to which defendants had agreed.”). Here, Swisher and Trendsettah jointly proposed the
challenged jury instructions on indirect proof of monopoly power. Compare Docket No.
171 at 52 (Trendsettah’s proposed jury instructions) with id. at 58 (Swisher’s proposed
jury instructions). This argument is therefore waived under the invited error doctrine.
3.3.

The Court denies Swisher’s request for a new trial on the contract claims.

The Court now turns to the contract claims. Swisher makes two arguments for
retrying the contract claims: (1) the contract verdict was inconsistent with the evidence of
Trendsettah’s contract damages, and (2) retrial on the antitrust claims requires retrial on
the contract claims. Docket No. 233 at 36-39. The Court rejects both arguments.
3.3.1.

The contract verdict was consistent with the evidence of
Trendsettah’s contract damages.

Trendsettah brings its contract claims under Florida law. Docket No. ¶¶ 60-70. In
Florida, a person injured by a breach of contract or bad faith “is entitled to recover a fair
and just compensation that is commensurate with the resulting injury or damage.” MCI
Worldcom Network Servs., Inc. v. Mastec, Inc., 995 So. 2d 221, 223 (Fla. 2008) (citing
Winn & Lovett Grocery Co. v. Archer, 171 So. 214 (Fla. 1936); Broxmeyer v. Elie, 647
So. 2d 893 (Fla. Dist. Ct. App. 1994)). “A plaintiff, however, is not entitled to recover
compensatory damages in excess of the amount which represents the loss actually
inflicted by the action of the defendant.” Id. (citing 17 Fla. Jur. 2d Damages §§ 3-7
(2004)).
Swisher argues that the Court must grant a new trial on contract damages because
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 15 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 16 of 19 Page ID
#:8898

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

the contract damages award exceeded Trendsettah’s contract losses. Docket No. 233 at
36-37. Swisher’s argument is as follows. The second private label agreement imposed
monthly caps on the number of cigarillos that Swisher was required to supply. Docket
No. 233-2 at 4-5 art. 3.1(c). Accordingly, Swisher could not be held liable in contract for
unfilled orders that exceeded the monthly caps. See MCI Worldcom, 995 So. 2d at 223
(barring compensatory damages that exceed “the loss actually inflicted by the action of
the defendant”). However, the jury incorrectly awarded damages for unfilled orders that
exceeded the monthly caps. The contract damages award was based on the Good Times
damages model, which calculated contract damages using the deficit figure from
Swisher’s economic expert, Dr. Alan Cox (“Cox”). See Trial Tr. (Mar. 18, 2016) at
112:14-15 (“Where was the source for the data for Slide 2 here?” “These data come from
the expert report of Dr. Cox.”). But Cox’s deficit figure did not exclude unfilled orders
that exceeded the monthly caps; the figure instead included all unfilled orders regardless
of whether the order exceeded the monthly caps. Accordingly, Swisher concludes, the
jury improperly awarded contract damages for unfilled orders that exceeded the monthly
caps.
The Court rejects this argument. At trial, Trendsettah presented two contract
damages models: the logistic model and the Good Times model. The logistic model
calculated that contract damages were $17,656,350, Trial Tr. (Mar. 18, 2016) at 175:1921, and the Good Times model calculated that contract damages were $9,062,679, Docket
No. 243-4 at 44-45. The jury awarded Trendsettah $9,062,679 in contract damages, the
same amount calculated under the Good Times model. Docket No. 207 at 3. This amount
is slightly higher than an award under a “corrected” Good Times model,5 but significantly
lower than an award under the logistic model. The jury’s acceptance of the Good Times
model could reflect its discounting of excess sales in the logistic model; plainly, there is a
reduction. But apart from the contract damages figure itself, there is no evidence, in the
jury verdict or elsewhere, establishing that the jury did that. See id. (“[W]hat damages do
In Swisher’s view, the Good Times model must exclude unfilled orders that exceeded the
monthly caps. After an independent review of Trendsettah’s monthly deficit figures for the second
private label agreement, see Pls.’ Trial Ex. 137 at 1 (“Revised Ex. 10.a to Cox Report”), the Court
determines that excluding excess orders would reduce the total deficit figure from 202,309,970 unfilled
orders to 182,603,170 unfilled orders. This is a difference of 19,706,800 unfilled orders, or 9.74% of the
total deficit figure. All such unfilled orders occurred in February 2013, the first month of the second
private label agreement. Id. After February 2013, there were no unfilled orders that exceeded the
monthly caps. Id.
5

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 16 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 17 of 19 Page ID
#:8899

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

you find by a preponderance of the evidence that [Trendsettah] has sustained as a result
of Swisher’s breach of contract(s) with [Trendsettah] and/or it [sic] breach of the implied
covenant of good faith and fair dealing in its contractual dealings with [Trendsettah]?”
“$9,062,679.”). Without such evidence, the Court cannot find that contract damages were
“contrary to the clear weight of the evidence.” Molski, 481 F.3d at 729. The Court
therefore declines to retry the contract claims on this ground.
3.3.2.

Retrying the antitrust claims does not require retrying the
contract claims.

As a general rule, courts may order a partial retrial that is limited to specific issues.
However, courts have recognized an exception to this general rule: when the issue to be
retried is “[in]distinct and [in]separable” from another issue, the court must order full
retrial on both issues. Gasoline Prods. Co., Inc. v. Champlin Refining Co., 283 U.S. 494,
500 (1931) (“Where the practice permits a partial new trial, it may not properly be
resorted to unless it clearly appears that the issue to be retried is so distinct and separable
from the others that a trial of it alone may be had without injustice.”). Courts typically
grant a full retrial under this exception in two circumstances: (1) when an error on one
issue affected the jury verdict on another issue, and (2) when full retrial is necessary to
avoid confusion and uncertainty with the jury on retrial. Morrison Knudsen Corp. v.
Fireman’s Fund Ins. Co., 175 F.3d 1221, 1255-56 (10th Cir. 1999) (citing National R.R.
Passenger Corp. v. Koch Indus., Inc., 701 F.2d 108, 110 (10th Cir. 1983); 11 Charles
Alan Wright & Arthur R. Miller, Fed. Practice & Procedure § 2814 at 154-56 (2d. ed.
1995); Gasoline Prods., 283 U.S. at 500)). Neither circumstance applies here.
First, there is no evidence that the antitrust verdict affected the contract verdict.
Although the antitrust and contract claims are based on Swisher’s breach of the private
label agreements, both categories of claims involve substantially different elements
requiring substantially different kinds of evidentiary proof. For example, to find
monopolization, the jury was required to find, in addition to breach of the private label
agreements, that (1) Swisher possessed “monopoly power” in certain regional non-tipped
cigarillo markets; (2) Swisher’s breach constituted willful acquisition or maintenance of
monopoly power in these markets; and (3) Swisher’s breach caused antitrust injuries.
SmileCare, 88 F.3d at 783 (quoting Pacific Express, Inc. v. United Airlines, Inc., 959
F.2d 814, 817 (9th Cir. 1992)). Proving each element in turn required proof of multiple
sub-elements. Again, for example, to show that Swisher possessed “monopoly power,”
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 17 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 18 of 19 Page ID
#:8900

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

Trendsettah was required to provide either (1) direct evidence of monopoly power
through restricted market output and supracompetitive pricing or (2) indirect evidence of
monopoly power through (a) Swisher’s dominant share of the various regional non-tipped
cigarillo markets and (b) significant barriers to entry in those markets. Rebel Oil, 51 F.3d
at 1434 (citing FTC v. Indiana Fed’n of Dentists, 476 U.S. 447, 460-61 (1986); Ryko
Mfg. Co. v. Eden Serv., 823 F.3d 1215, 1232 (8th Cir. 1987); Ball Memorial Hosp. Inc.
v. Mutual Hosp. Ins., Inc., 784 F.2d 1325, 1335 (7th Cir. 1986)). This required the jury to
consider, among other things, complex economic evidence regarding restricted market
output, supracompetitive pricing, and barriers to entry in regional tobacco product
markets. See Rebel Oil, 51 F.3d at 1434.
Trendsettah’s contract claims required no such showing. To show breach of
contract under Florida law, Trendsettah need only show that (1) Swisher and Trendsettah
entered into the private label agreements; (2) Swisher breached the private label
agreements; and (3) the breach damaged Trendsettah. Friedman v. New York Life Ins.
Co., 985 So. 2d 56, 58 (Fla. Dist. Ct. App. 2008). But unlike with the antitrust claims, the
jury did not need to consider complex economic evidence regarding regional non-tipped
cigarillo markets to determine whether Swisher breached the private label agreements.
Instead, the jury needed only to review the terms of the private label agreements and
evaluate Swisher’s performance under those terms. See id. Given the substantial
differences between the contract and antitrust claims, the Court cannot find that the
antitrust verdict improperly influenced or affected the original contract verdict. See Rush
v. Scott Specialty Gases, Inc., 113 F.3d 476, 487 (3d Cir. 1997) (ordering retrial on
sexual harassment claim when inclusion of time-barred sex discrimination claim
“infected the entire verdict”).
Second, and for substantially the same reasons, there is no evidence that retrying
the antitrust claims, while preserving the contract claims, would result in “confusion and
uncertainty” with the jury on retrial. Morrison Knudsen, 175 F.3d at 1256. The fact that it
was verbally conceded that Swisher’s failure to deliver cigarillos was breach only
underscores the Court’s conclusion. Accordingly, the Court denies Swisher’s motion for
a new trial on the contract claims on this ground.
4.

Conclusion

CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 18 of 19

Case 8:14-cv-01664-JVS-DFM Document 262 Filed 08/17/16 Page 19 of 19 Page ID
#:8901

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.

SACV14-01664 JVS (DFMx)

Title

Trendsettah USA, Inc., et al. v. Swisher International Inc.

Date

August 17, 2016

For the reasons stated above, the Court grants in part and denies in part
Swisher’s renewed motion for judgment as a matter of law as follows:
(1)

The Court grants Swisher judgment as a matter of law on the
monopolization claim; but

(2)

The Court denies Swisher judgment as a matter of law on the attempted
monopolization claim.

The Court grants in part and denies in part Swisher’s motion for a new trial as
follows:
(1)

The Court grants Swisher a new trial on the attempted monopolization
claim and a conditional new trial on the monopolization claim; but

(2)

The Court denies Swisher a new trial on the contract claims.

IT IS SO ORDERED.
The Court sets a Scheduling/Status Conference for Monday, September 19, 2016 at
10.00 A.M. Counsel shall file a Joint Status Report, with their proposed schedule, not
later than September 12, 2016.
:
Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

00

kjt

Page 19 of 19

